SUPREME COURT OF THE UNITED STATES
NO. 20-937
ROBERT ANDREWS,

Petitioner,
v.

STATE OF NEW JERSEY,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on April 2,
2021, Respondent’s brief in opposition was served on the following
individuals, who consented to electronic service in accordance with this
Court’s April 15, 2020 General Order:
Jennifer Stisa Granick
Stanford Law School
559 Nathan Abbot Way
Stanford, CA 94305
CJ Griffin
Pashman Stein Walder Hayden, P.C.
21 Main Street, Suite 200
Hackensack, NJ 07601
Marissa Koblitz Kingman
Fox Rothschild, LLP
49 Market Street
Morristown, NJ 07960
Neil Michael Richards
Cordell Institute of Washington University in St. Louis
One Brookings Drive
St. Louis, MO 63130

Brian Klein
Waymaker LLP
777 S. Figueroa St., 2850
Los Angeles, CA 90017
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: April 2, 2021

